                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM




        We received an allegation of intellectual property theft. The complainant1 alleges that his idea
        inappropriately appears in the subject's2 publication3 that acknowledges NSF support, and that a
        collaboration between the two should have been acknowledged in that publication. The
        complainant is concerned that the subject (made privy to the complainant's research ideas during
        a job search) took adLantage of that access for personal benefit. However, the ideas are general
        in nature and no factual basis supports the allegation of intellectual property theft.

        Accordingly, this case is closed.




NSF OIG Form 2 (11102)
